IN THE SUPREME COURT OF THE UNITED STATES

SMITH, MICHAEL ROY
Petitioner
vs.

No:

21-5274

U.S. MERRICK B. GARLAND, ATTORNEY GENERAL
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
September 01, 2021
cc:
ERICA JOAN HASHIMOTO
GEORGETOWN UNIVERSITY LAW
CENTER
MC DONOUGH HALL
111 F STREET, NW
SUITE 306
WASHINGTON, DC, DC 20001

